No. 19-554
IN THE

pìéêÉãÉ=`çìêí=çÑ=íÜÉ=råáíÉÇ=pí~íÉë=
_______________

50 MURRAY STREET ACQUISITION, LLC,
Petitioner,
v.
JOHN KUZMICH, ET AL.,
Respondents.
_______________

On Petition for Writ Of Certiorari
To The New York Court Of Appeals
_______________
BRIEF OF PROFESSOR
RICHARD A. EPSTEIN AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
_______________
RICHARD A. EPSTEIN
800 NORTH MICHIGAN AVENUE
#3502
CHICAGO, IL 60611-2156
repstein@uchicago.edu

THEANE D. EVANGELIS
Counsel of Record
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP
Los Angeles, CA 90071-3197
(213) 229-7804
tevangelis@gibsondunn.com

Counsel for Amicus Curiae

TABLE OF CONTENTS
Page
INTEREST OF AMICUS CURIAE............................. 1
INTRODUCTION AND SUMMARY OF ARGUMENT .............................................................. 1
ARGUMENT ............................................................... 6
I.

NEW YORK LAW RECOGNIZES A PROPERTY RIGHT IN A GOVERNMENT BENEFIT
WHERE A PARTY HAS A LEGITIMATE
CLAIM OF ENTITLEMENT TO THAT BENEFIT. ................................................................. 6

II. PETITIONER HERE HAD A LEGITIMATE
CLAIM OF ENTITLEMENT TO LUXURY
DECONTROL UNDER THE RSL. ...................... 10
III. THE NEW YORK COURT OF APPEALS’ DECISION ABROGATING PETITIONER’S PROPERTY INTEREST IN LUXURY DECONTROL
CONSTITUTES A TAKING. ............................... 14
CONCLUSION .......................................................... 17

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Acquest Wehrle, LLC v. Town of Amherst,
129 A.D.3d 1644 (2015) .......................................... 9
Board of Regents v. Roth,
408 U.S. 564 (1972) ................................................ 6
Bower Associates v. Town of Pleasant Valley,
2 N.Y.3d 617 (2004)................................................ 8
Matter of Daxor Corp. v. State of New
York Dep’t of Health,
90 N.Y.2d 89 (1997)................................................ 8
Goldberg v. Kelly,
397 U.S. 254 (1970) ................................................ 6
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992) ............................................ 15
Penn Central Transportation Co. v.
City of New York,
438 U.S. 104 (1978) .......................................... 4, 17
Pennsylvania Coal Co. v. Mahon,
260 U.S. 393 (1922) .............................................. 14
People v. Miller,
304 N.Y. 105 (1952)................................................ 7
Perry v. Sindermann,
408 U.S. 593 (1972) .................................... 6, 12, 13

iii
Ruckleshaus v. Monsanto Co.,
467 U.S. 986 (1984) .............................................. 14
Stop the Beach Renourishment, Inc. v. Florida
Dep’t of Environmental Protection,
560 U.S. 702 (2010) ................................................ 6
Tahoe-Sierra Preservation Council, Inc. v.
Tahoe Regional Planning Agency,
535 U.S. 302 (2002) .............................................. 14
Town of Orangetown v. Magee,
88 N.Y.2d 41 (1996)............................................ 7, 8
United States v. General Motors Corp.,
323 U.S. 373 (1945) .............................................. 15
Walz v. Town of Smithtown,
46 F.3d 162 (2d Cir. 1995) ..................................... 9
Constitutional Provisions
U.S. Const., amend. V ................................................. 6

INTEREST OF AMICUS CURIAE1
Richard A. Epstein is the Laurence A. Tisch Professor of Law at New York University Law School, the
Peter and Kirsten Bedford Senior Fellow at the Hoover Institution at Stanford University, and the James
Parker Hall Distinguished Service Professor Emeritus and Senior Lecturer at The University of Chicago
Law School.
He has a strong academic and pedagogical interest in the issues raised in this case, having taught
courses in property, land use planning, contracts, and
constitutional law, and having authored numerous
books that deal with these issues, including Takings:
Private Property and the Power of Eminent Domain
(1985), Bargaining with the State (1993), and The
Classical Liberal Constitution: The Uncertain Quest
for Limited Government (2014).
INTRODUCTION AND
SUMMARY OF ARGUMENT
The question of how far the constitutional guarantees afforded under the Takings Clause extend remains one of the most unsettled issues of our time.
The question is particularly vexing when a purported
taking arises not with respect to a preexisting common-law property interest that the government seeks
to condemn or regulate, but with respect to a promise
1

Pursuant to this Court’s Rule 37.6, counsel for amicus curiae
states that no counsel for a party authored this brief in whole or
in part, and no one other than amicus, its members, and its counsel made a monetary contribution to fund the preparation or submission of this brief. Pursuant to this Court’s Rule 37.2(a), all
parties received timely notice of this filing and have provided
consent.

2
of some public benefit that induces a private party to
change its position—only to sustain substantial losses
when the promised benefit is revoked, either by legislative action or by judicial interpretation. Where, as
here, that private party has done everything in its
power to confirm the availability of the public benefit
before acting in reliance on it, and where the government has repeatedly assured the party that it will provide the benefit, must the government pay just compensation for the losses sustained?
This important question, fully worthy of review by
this Court, is squarely presented in this case. Nearly
a quarter-century ago, the New York State Legislature
enacted the Lower Manhattan Revitalization Plan,
which, among other things, added Section 421-g to the
New York Real Property Tax Law (RPTL). That section offers tax benefits to property owners who convert
qualifying commercial space located in downtown
Manhattan into residential units. Since its passage,
state and local agencies have uniformly concluded
that property owners who accept Section 421-g benefits remain eligible to take advantage of the luxury decontrol provision of New York’s Rent Stabilization
Law (RSL).
Indeed, the New York City Department of Housing
Preservation and Development issued certificates of
eligibility establishing that the properties at issue
here were eligible for both Section 421-g benefits and
luxury decontrol. A certificate of eligibility must issue
upon the satisfaction of specified conditions, and a
party that secures a certificate of eligibility is entitled
to Section 421-g benefits as a matter of right. As no
further, individualized authorization is required to
claim entitlement to these benefits, a property owner’s

3
right to them is perfected when a certificate of eligibility issues. In reasonable reliance on these certificates, as well as the express assurances of numerous
state agencies in response to inquiries from Petitioner,
Petitioner acquired these properties for more than
half a billion dollars—a sum that would make no financial sense if the properties were not eligible for
both Section 421-g benefits and luxury decontrol.
Notwithstanding this long-established interpretation of the RPTL and RSL, the New York Court of Appeals held in the decision below that property owners
who accept Section 421-g benefits cannot take advantage of luxury decontrol. As a result, any property
that benefits from Section 421-g will be subject to rent
control during the entire time it receives such benefits. What’s more, these properties must remain under
rent control even after Section 421-g benefits terminate, unless the property owner included specific
terms in every lease that it issued since it began accepting those benefits. Many property owners, including Petitioner, chose not to observe these conditions in
reliance on the government’s repeated assurances
that there was no need to do so because luxury decontrol was freely available to Section 421-g beneficiaries.
These parties now find themselves permanently—and
unwittingly—deprived of the luxury decontrol benefit.
Crucially for this petition, New York’s Court of Appeals never once considered whether, irrespective of
its novel reading of the RPTL and RSL, Petitioner had
already acquired a property interest in the luxury decontrol right that had been promised (and conferred)
for 15 years. The answer to that question is indisput-

4
ably, “yes.” And the Court of Appeals’ decision eliminating that right constitutes a taking compensable
under the Fifth and Fourteenth Amendments.
One way to think about this case is through the
lens of regulatory takings. The Court of Appeals’ decision interfered with Petitioner’s legitimate “investment-backed expectations” in its real property—
which are protected under this Court’s seminal decision in Penn Central Transportation Co. v. City of New
York, 438 U.S. 104, 124 (1978)—without offering any
public justification for doing so. See Pet. 33–34. After
all, the government’s interests in this issue are entirely financial and thus do not implicate any of the
traditional police power concerns with the physical relationships of the property to its immediate environment, as did the landmark preservation scheme at issue in Penn Central. Id. at 123–29.
But another way of thinking about this case is to
focus less on Petitioner’s property right in the physical
building and more on its interest in the public benefits
conferred under the RPTL and RSL—namely, Section
421-g benefits and luxury decontrol. New York law
recognizes a “vested” property right in a public benefit
(typically a building permit or a nonconforming use)
whenever the government has promised that benefit
and the property owner has incurred substantial detriment in reliance on that promise. Even where these
conditions are not satisfied, a property right in a government benefit may still arise under New York law
where a party has a “legitimate claim of entitlement”
to that benefit.

5
The facts of this case clearly establish that Petitioner acquired a property interest in the luxury decontrol benefit available under the RSL. The agencies
responsible for administering New York’s rent control
laws repeatedly assured Petitioner that the subject
properties were eligible for both Section 421-g benefits
and luxury decontrol, and the New York City Department of Housing Preservation and Development issued “certificates of eligibility” for the properties—the
functional equivalent of a permit—confirming this
fact. These promises induced Petitioner to expend approximately $540 million to purchase the properties.
At minimum, Petitioner had a legitimate claim of entitlement to luxury decontrol given the established
practice of allowing property owners who met the
standards articulated in the RSL to take advantage of
luxury decontrol irrespective of whether they also accepted benefits under Section 421-g.
When the Court of Appeals issued its decision, it
completely extinguished Petitioner’s property interest
in the RSL’s luxury decontrol benefit—not just during
the time Petitioner accepted Section 421-g benefits,
but in perpetuity. The gravity of this decision cannot
be understated, as rent-controlled properties are not
only subject to caps on rent, but also limits on the ability to evict tenants and market to new tenants. This
total destruction of Petitioner’s property right, even
when done solely by judicial decision, may be countenanced only upon payment of just compensation.

6
ARGUMENT
I.

NEW YORK LAW RECOGNIZES A PROPERTY
RIGHT IN A GOVERNMENT BENEFIT WHERE A
PARTY HAS A LEGITIMATE CLAIM OF
ENTITLEMENT TO THAT BENEFIT.

Although the U.S. Constitution provides that “private property [shall not] be taken for public use without just compensation,” U.S. Const., amend. V, “[p]roperty interests . . . are not created by the Constitution,”
Board of Regents v. Roth, 408 U.S. 564, 577 (1972). Instead, “they are created and their dimensions are defined by existing rules or understandings that stem
from an independent source such as state law.” Id.; see
also Stop the Beach Renourishment, Inc. v. Florida
Dep’t of Environmental Protection, 560 U.S. 702, 707
(2010) (“Generally speaking, state law defines property interests.”).
The scope of property under state law can be quite
sweeping, however. As this Court has recognized,
“‘property’ interests . . . are not limited by a few rigid,
technical forms,” but rather include “a broad range of
interests that are secured by ‘existing rules or understandings.’” Perry v. Sindermann, 408 U.S. 593, 601
(1972). These interests include not only traditional
forms of property recognized at common law, but also
interests in government benefits. See Goldberg v.
Kelly, 397 U.S. 254, 262 n.8 (1970) (noting that “[m]uch
of the wealth in this country takes the form of rights
that do not fall within traditional common-law concepts of property,” yet it is still sensible to treat these
“entitlements as more like ‘property’ than a ‘gratuity’”).

7
“In order to establish a protectable property interest” in a government benefit under New York law, a
party “must show more than a mere expectation or
hope” of receiving the benefit, but instead “must show
that pursuant to State or local law, [it] had a ‘legitimate claim of entitlement’” to it. Town of Orangetown
v. Magee, 88 N.Y.2d 41, 52 (1996). As relevant here,
New York law recognizes two forms of property, based
on the source of the claim of entitlement and the extent to which a party has relied on that claim. But
while the distinction between these forms of property
matters in determining whether and to what extent
general regulations may restrict a party’s enjoyment
of its property, the distinction does not matter where
the government has entirely extinguished the property right in question.
First, a property owner may establish a “vested”
property right in a government benefit by incurring
substantial expenses in reliance on the promise of
such a benefit—expenses that cannot be recouped if
the benefit is withdrawn. This form of property right
typically arises with respect to a building permit that
is subsequently revoked or a property use that was
permitted but which later becomes impermissible. In
these circumstances, the building permit or prior zoning law grounds the “legitimate claim or expectation.”
And where the property owner has begun to build or
improve a property in reasonable reliance on this
claim, it will be deemed to have a vested property
right that the government may not impinge, even in
the form of otherwise reasonable regulations. See People v. Miller, 304 N.Y. 105, 108 (1952) (“The decisions
are sometimes put on the ground that the owner has
secured a ‘vested right’ in the particular use—which

8
is but another way of saying that the property interest
affected by the particular ordinance is too substantial
to justify its deprivation in light of the objectives to be
achieved by enforcement of the provision.”).
In Town of Orangetown, for example, a Building
Inspector issued a permit authorizing the construction of an industrial building. 88 N.Y.2d at 46. After
the property owners had spent more than $4 million
to develop the land, the Building Inspector revoked
the permit in response to local political pressure. Id.
The Court of Appeals held that the property owners
had “establish[ed] a protectable property interest in
the building permit” by showing “that the right to develop their land had become vested under State law.”
Id. at 52. As the court explained, “[i]n New York, a
vested right can be acquired when, pursuant to a legally issued permit, the landowner demonstrates a
commitment to the purpose for which the permit was
granted by effecting substantial changes and incurring substantial expenses to further the development.” Id. at 47. Accordingly, the court ordered “reinstatement of the building permit.” Id. at 48.
Second, even without the issuance of a permit,
New York law recognizes an ordinary property right
whenever there is a “‘certainty or a very strong likelihood’ that” the benefit will be conferred. Bower Associates v. Town of Pleasant Valley, 2 N.Y.3d 617, 628
(2004). “[W]hat is central to the analysis is whether
the law accords discretion to the authority: property
interests do not arise in benefits that are wholly discretionary.” Matter of Daxor Corp. v. State of New York
Dep’t of Health, 90 N.Y.2d 89, 98 (1997). A fortiori,
where the government has surrendered all discretion
to deny eligibility for a benefit upon satisfaction of

9
specified conditions—for example, undertaking conduct deemed to be in the public interest—a party who
has satisfied those conditions acquires a property
right in the benefit.
Walz v. Town of Smithtown, 46 F.3d 162 (2d Cir.
1995), shows the reach of property rights in government benefits under New York law. There, a property
owner sued after the town’s highway department declined to grant a permit for certain excavation work
necessary to connect his property to the town’s water
system. Id. at 164–65. The Second Circuit observed
that under the town’s ordinances, “[s]o long as an application form [for an excavation permit] states ‘the
nature, location, extent and purpose of the proposed
excavations,’ the Superintendent of Highways has no
discretion to decline to issue the permit” because
“[t]he Smithtown Code states, ‘a permit shall be issued.’” Id. at 168. As a result, the court concluded that
the property owners “had a property right in an excavation permit.” Id. at 167; see also Acquest Wehrle,
LLC v. Town of Amherst, 129 A.D.3d 1644, 1647 (2015).
For present purposes, the distinction between
“vested” and “ordinary” property rights is immaterial
where the government does everything in its power to
assure a private party of its right to a government
benefit and induces that party to expend millions of
dollars in reliance on these assurances. This gave rise
to a cognizable property interest under New York law,
and the Takings Clause draws no distinctions between
the form of property interest; if the government takes
property, no matter the nature of that property, the aggrieved party has a claim under the Takings Clause.
Consequently, so long as Petitioner has a property interest in the right to luxury decontrol under the RSL

10
under any of the grounds articulated above, a takings
claim should lie.
II. PETITIONER HERE HAD A LEGITIMATE CLAIM OF
ENTITLEMENT TO LUXURY DECONTROL UNDER
THE RSL.
In the decision below, the New York Court of Appeals interpreted Section 421-g as prohibiting property owners who accepted tax benefits under that provision from claiming luxury decontrol under the RSL.
Whether this is correct as a matter of statutory interpretation is not at issue. Rather, the question is only
whether, before the Court of Appeals issued its decision, Petitioner had a legitimate claim of entitlement
to eligibility for luxury decontrol so as to establish a
property right in that government benefit, or, in the
alternative, a legitimate investment-backed expectation of its availability under Penn Central. Under the
circumstances presented here, that question must be
answered in the affirmative.
First, Petitioner acquired a vested property right
in the availability of luxury decontrol because it incurred substantial expenses in reliance on state and
local agencies’ express promises that it would be eligible for luxury decontrol even if it accepted Section
421-g benefits. Since 2003, Petitioner and its predecessors-in-interest have, as part of a wide-ranging set
of promises made in exchange for their investment in
lower Manhattan’s real estate market, received “certificates of eligibility” from the New York City Department of Housing Preservation and Development confirming the subject properties’ eligibility for both Section 421-g benefits and luxury decontrol. Pet. App.
134a–35a. Because these certificates of eligibility,

11
once issued, establish a nondiscretionary right to the
promised benefit, they are fully analogous to a building permit and its nondiscretionary right, once issued,
to engage in the authorized construction project.
Moreover, the Department issued these certificates of
eligibility with full awareness that Petitioner and its
predecessors-in-interest were renting the units at
market rates under the luxury decontrol provision.
Id. In doing so, the Department has confirmed that
receipt of Section 421-g benefits includes the continued right to luxury decontrol.
Based on these assurances, Petitioner incurred
substantial expense in detrimental reliance on these
(and other) governmental promises. Petitioner purchased the subject properties in 2014 for $540 million—a sum that incorporated the significant costs
that had been incurred by its predecessors-in-interest
converting the properties to residential use under the
Lower Manhattan Revitalization Plan. This purchase
would not have made financial sense if the units could
not have been rented at market rates. Id. at 132a.
And when that right was lost, Petitioner received
nothing at all in exchange.
Second, regardless of whether the government’s
promises were sufficient to give rise to a vested property right in luxury decontrol, Petitioner had an ordinary property right in the benefit because it had a legitimate claim of entitlement to luxury decontrol. The
RSL affords no discretion in determining whether a
property that meets the statutory qualifications for
luxury decontrol is eligible for the benefit. And while
the Court of Appeals concluded that these non-discretionary provisions delineating eligibility for luxury de-

12
control cut against Petitioner, that does not undermine the legitimacy of Petitioner’s claim of entitlement. The state and local government agencies responsible for administering New York’s rent control
laws had, for decades, uniformly agreed that Section
421-g benefits and luxury decontrol go hand-in-hand.
And before purchasing the subject properties, Petitioner specifically inquired into the properties’ eligibility for both Section 421-g benefits and luxury control—and was repeatedly assured by these government agencies that they were.
In short, Petitioner did everything in its power to
ascertain the properties’ eligibility for luxury decontrol and received the same answer every step of the
way. This is surely enough to give rise to a legitimate
claim of expectation, even if the Court of Appeals ultimately reached a different conclusion. Indeed, even if
the Court of Appeals’ conclusion were correct solely as
a matter of statutory interpretation, the longstanding
practice of the state and local agencies responsible for
administering New York’s rent control laws—repeatedly reaching the exact opposite conclusion—was sufficient for Petitioner to have a legitimate claim of entitlement to luxury decontrol.
This Court’s opinion in Perry is on all fours. There,
a teacher in Texas’s state college system claimed that
he was denied due process when the state declined to
renew his teaching contract after he became involved
in public disagreements with the Board of Regents.
408 U.S. at 595. Although the teacher’s interest in renewal of his contract was “not secured by a formal contractual tenure provision,” id. at 599, the Court
stressed that “absence of such an explicit contractual
provision may not always foreclose the possibility that

13
a teacher has a ‘property’ interest in reemployment,”
id. at 601. This conclusion was borne out of a recognition that, irrespective of the written law, “there may
be an unwritten ‘common law’ in a particular university that certain employees shall have the equivalent
of tenure.” Id. at 602. In Perry, such a common law
was likely to exist because the college’s faculty guide
stated that “‘[t]he Administration of the College
wishes the faculty member to feel that he has permanent tenure as long as his teaching services are satisfactory and as long as he displays a cooperative attitude,’” and “guidelines promulgated by the Coordinating Board of the Texas College and University System
. . . provided that a person, like himself, who had been
employed as a teacher in the state college and university system for seven years or more ha[d] some form
of job tenure.” Id. at 600.
As in Perry, here there was a well-established
“common law” practice that recipients of Section 421g benefits would remain eligible for luxury decontrol
regardless of whether a right to luxury decontrol formally existed under statutory law. And as in Perry,
this common law right was established by longstanding agency practice. The New York City Department
of Housing Preservation and Development promulgated regulations confirming that buildings receiving
Section 421-g benefits would remain eligible for luxury decontrol. Pet. App. 28a. And the New York State
Division of Housing and Community Renewal has issued numerous advisory letters reaching the same
conclusion. See, e.g., 145a–47a, 148a–49a, 150a–51a.
As Chief Judge DiFiore acknowledged in dissent from
the decision below, “it is clear from HPD’s promulgated rules and forms, as well as DHCR’s informal

14
guidance, that the agencies most closely involved in
the implementation of the section 421-g program and
the property owners subject to that program . . .
shared a common understanding—that the entirety of
the RSL applied to section 421-g buildings, including
its luxury decontrol provisions.” Id. at 29a. This understanding supports Petitioner’s legitimate claim of
entitlement to luxury decontrol.
As a result, Petitioner had a property interest in
eligibility for exemption from rent control under the
luxury decontrol provision notwithstanding its acceptance of Section 421-g benefits. The only remaining question is whether the Court of Appeals effected
a taking of that property interest when it issued the
decision below.
III. THE NEW YORK COURT OF APPEALS’ DECISION
ABROGATING PETITIONER’S PROPERTY INTEREST
IN LUXURY DECONTROL CONSTITUTES A TAKING.
Although “the ‘classi[c] taking’ [is one] in which the
government directly appropriates private property for
its own use,” Tahoe-Sierra Preservation Council, Inc. v.
Tahoe Regional Planning Agency, 535 U.S. 302, 324
(2002), this Court has long recognized that the Takings Clause is not limited to such classic cases. For
example, this Court has acknowledged that “data cognizable as a trade-secret property right under [state]
law . . . is protected by the Takings Clause of the Fifth
Amendment,” Ruckleshaus v. Monsanto Co., 467 U.S.
986, 1003–04 (1984), and that governmental acts that
regulate, rather than appropriate, personal property
“will be recognized as a taking” if they “go[] too far,”
Pennsylvania Coal Co. v. Mahon, 260 U.S. 393, 415
(1922). Indeed, whether the government acquires the

15
private party’s property interest is irrelevant to that
takings analysis, for it is “the deprivation of the former owner rather than the accretion of a right or interest to the sovereign [that] constitutes the taking.”
United States v. General Motors Corp., 323 U.S. 373,
378 (1945). “Governmental action short of acquisition
of title or occupancy has been held, if its effects are so
complete as to deprive the owner of all or most of his
interest in the subject matter, to amount to a taking.”
Id.; see also Lucas v. South Carolina Coastal Council,
505 U.S. 1003, 1020 (1992) (adopting a categorical rule
that “[w]hen the owner of real property has been
called upon to sacrifice all beneficial uses in the name
of the common good . . . , he has suffered a taking”).
The Court of Appeals’ decision in this case effected
a taking by completely extinguishing Petitioner’s
right to luxury decontrol. Indeed, Petitioner will now
never be able to claim luxury decontrol, even after it
has ceased accepting Section 421-g benefits. This is
because the RPTL provides that, following termination of those benefits, “such rents shall continue to be
subject to rent control, except that such rents that
would not have been subject to such control but for
this subdivision, shall be decontrolled if the landlord
has included in each lease and renewal thereof for
such unit for the tenant in residence at the time of
such decontrol a notice in at least twelve point type
informing such tenant that the unit shall become subject to such decontrol upon the expiration of benefits
pursuant to this section.” RPTL 421-g(6) (emphasis
added). In reliance on the government’s repeated
promises that acceptance of Section 421-g benefits
would not affect eligibility for luxury decontrol, Petitioner—like many other Section 421-g beneficiaries—

16
never included this notice in their leases. See Pet. 34
n.10.
By extinguishing Petitioner’s interest in luxury decontrol, the Court of Appeals’ decision has also seriously undermined the value of Petitioner’s interest in
the subject properties themselves. Not only will Petitioner have to rent its units at a price far below market rates (and repay millions of dollars in supposed
rent overcharges), but it will also be obligated to permit Respondents to continue residing in the units at
controlled rates for as long as they wish—and also to
transfer that right to family members and others who
can show a sufficient attachment to Petitioner’s properties.
These infringements on Petitioner’s property
rights are especially egregious considering that they
result from Petitioner’s good-faith reliance on the government’s promises—promises made in order to induce property owners to expend their own funds to
achieve the government’s goal of revitalizing lower
Manhattan. Section 421-g benefits were one inducement, but they were not enough to convince property
owners that the substantial risk of investing millions
of dollars converting dilapidated commercial properties into residential units in this blighted neighborhood was worthwhile. And so the government promised developers that they could also charge market
rents under the RSL’s luxury decontrol provision to recoup their substantial investments.
Now that the government has achieved its goal of
revitalizing lower Manhattan on the backs of property
owners like Petitioner, it is changing the rules of the
game and leaving these private parties holding the

17
bag. This is not simply the “adjust[ment] [of] the benefits and burdens of economic life to promote the common good.” Penn Central Transportation Co. v. City of
New York, 438 U.S. 104, 124 (1978). On the contrary,
the government here has substantially “interfered
with distinct investment-back expectations,” id., to
such an extent that, if the decision below stands, Petitioner’s will be unable to cover even the mortgage payments on their properties. Such a profound alteration
of property owners’ expectations cannot be effected
without, at minimum, just compensation for the affected parties.
CONCLUSION
For the reasons stated above, this Court should
grant certiorari and vacate or reverse the judgment of
the New York Court of Appeals.
Respectfully submitted.
RICHARD A EPSTEIN
800 NORTH MICHIGAN AVENUE
#3502
CHICAGO IL 60611-2156
repstein@uchicago.edu

THEANE D. EVANGELIS
Counsel of Record
SAMUEL ECKMAN
GIBSON, DUNN & CRUTCHER LLP
Los Angeles, CA 90071-3197
(213) 229-7804
tevangelis@gibsondunn.com

Counsel for Amicus Curiae

November 29, 2019

